                        CLOSEOUT FOR CASE M-96110039

        On 13 November 1996, a program officer' (the first program officer) brought an
allegation of misconduct in science to OIG's attention. The complainant2 alleged in a
telephone call to the first program officer that he had been told that ideas in his NSF
proposal3 had been misappropriated (intellectual theft) into another NSF proposal.
According to the first program officer, the complainant knew only the state4 in the U.S. from
which the other proposal originated. This information, however, enabled the first program
officer, with the assistance of a second program officer,' to identify the likely NSF proposal6
and subjects #1 and #17OIG considered two allegations in this case: the misappropriation
of ideas by the subjects and the breach of the confidentiality of peer review by *anunknown
individual(s) who provided the complainant with confidential information about a proposal.

       OIG observed that subject #1 had received the complainant's proposal to review about
2 weeks prior to the submission of his NSF proposal. In a letter to NSF, mailed prior to the
submission of his own proposal, subject # 1 declared a conflict of interests, explaining that he
was preparing a proposal for submission to NSF on the same topic. Consequently, he did not
submit a review. The first and second program officers said that, other than both proposals
focusing on the same study area, the complainant's and the subjects' proposals were
dissimilar, proposing different projects and theories. OIG's comparison of the two proposals
concluded that the subjects' proposal contained no ideas that could be considered unique to
the complainant's proposal. There was no substance to the allegation that the subjects
misappropriated ideas from the complainant's proposal.

        OIG contacted the complainant. The cokplainant identified a colleague8 who, he
                                          '


said, had told him about an NSF proposal she had received for review that was similar to the




                                         Page 1 of 2
                        CLOSEOUT FOR CASE M-96110039

complainant's NSF proposal. The complainant said that the colleague told him nothing else
about the proposal. He claimed that it was the first program officer who had identified the
subjects' state. In a second conversation with OIG, the first program officer reiterated that it
was the complainant who had provided the state of origin of the subjects' proposal.

       OIG's inquiry was unable to determine how or from whom the complainant had
obtained information about the submission of a proposal from another state. Consistent with
NSF's policy to keep reviewers' identities confidential, OIG will neither confirm nor deny
whether the colleague was a reviewer. However, the information apparently learned by the
complainant had nothing to do with either the proposal's content or the identify of its PIS. If
a breach of confidentiality occurred, it did not involve specific information about the
proposal's content. OIG concluded that there was insufficient substance to pursue the
alleged breach of confidentiality of peer review further.

       This case is closed, and no further action will be taken.

cc: Staff Scientist,Attorney, AIG Oversight, IG




                                              Page 2 of 2
